GR-90-98-018
U.S. DEPARTMENT OF JUSTICE
 
 Audit Report
 
POLICE HIRING SUPPLEMENT GRANT
AWARDED TO THE COUNTY OF SACRAMENTO SHERIFF'S DEPARTMENT
CALIFORNIA
GR-90-98-018
APRIL 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Bureau
of Justice Assistance, to the County of Sacramento, California, Sheriff's Department
(SCSD). In December 1993, the SCSD received a grant of $1.9 million to hire or rehire 20
sworn officers under the Police Hiring Supplement program (PHS). The purpose of the grant
was to enhance community policing efforts. 
We found the following weaknesses during our audit regarding the grant conditions:



-  The SCSD failed to comply with two basic DOJ grant requirements. The SCSD did
      not establish separate cost accounting centers (accounts) and was commingling the funds
      received from the PHS grant with other grant and County revenues used to fund operations.
      Because the SCSD failed to comply with the aforementioned grant requirements, we
      determined that the fringe benefit costs ($644,255) for the sworn officers hired under the
      PHS grant were unsupported by the accounting records.
- The PHS grant expired on April 30, 1997 with $89,125 in unexpended, obligated federal
      funds. A grant extension has not been approved; therefore, OJP should de-obligate the
      $89,125 and put the funds to better use.
#####